              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
 The Department’s Unclassified
 Foreign Visits and Assignments
 Program




DOE/IG–0579                                 December 2002
                          U. S. DEPARTMENT OF ENERGY
                                Washington, DC 20585

                                    December 23, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                           Gregory H. Friedman (Signed)
                                Inspector General

SUBJECT:                        INFORMATION: Audit Report on "The Department's Unclassified
                                Foreign Visits and Assignments Program"


BACKGROUND

The Department of Energy's national laboratories have diverse missions that range from national
defense to fundamental research in the physical sciences. Each year, the laboratories host
thousands of visitors and assignees from foreign countries, many of whom are researchers from
local laboratories and educational institutions. Long-term assignments enable foreign nationals to
participate in a broad range of unclassified activities. The Department and its international
partners benefit from the exchange of information that results from the visits and assignments
because they foster open communication, stimulate ideas, and enhance research.

Along with the benefits, however, foreign visits and the resulting exchange of information also
raise certain security risks. These risks need to be effectively managed by the Department and its
contractors in the interest of national security. This was emphasized in the 2002 Hamre
Commission Report, in which it was noted that our adversaries might use unclassified activities –
such as those undertaken by visitors and assignees – to gain access to classified activities. We
conducted this review to determine whether controls over foreign visits and assignments at
selected national laboratories were adequate or operating as intended.

As noted on page 2 of this memorandum, the Deputy Secretary, in a December 17, 2002,
response to a draft of this report, initiated a number of steps to address the issues raised during the
audit.

RESULTS OF AUDIT

We found that the Department had not adequately controlled unclassified visits and assignments
by foreign nationals at two national laboratories. Specifically, one managed by the Office of
Science and one by the National Nuclear Security Administration (NNSA), had not ensured that
all foreign nationals had current passports and visas. Additionally, the Science-managed
laboratory granted site access to foreign nationals, some of whom were from sensitive countries1,
prior to official approval and, in many instances, before background checks or counterintelligence
consultations were completed. Finally, neither laboratory provided sufficient information to the
Department's centralized tracking system, which was designed to facilitate complex-wide
tracking of the status of foreign nationals. The administration of the foreign visits and
assignments program suffered because of:

1
 The Department maintains a list of countries designated as sensitive for reasons of national security,
nonproliferation, anti-terrorism, or economic security.
                                                     -2-


   •   A lack of specific policy guidance;
   •   Problems with local implementation; and,
   •   A lack of clear and quantifiable performance measures.

We recommended that the Department strengthen management practices for controlling unclassified
visits and assignments by foreign nationals. In doing so, we noted that the Office of Security had
issued draft policy guidance for comment, but we concluded that additional action was necessary to
ensure that only those persons with current visas and passports are admitted to Department facilities.
As we discussed in our Inspection Report of the Department of Energy's Export License Process for
Foreign National Visits and Assignments (DOE/IG-0465, March 2000), clear policy and the ability to
accurately account for all foreign visits or assignments are essential to protecting the country's
commercial and security interests. Our recommendations are not intended to restrict the legitimate
access to taxpayer-funded research, but rather to provide a mechanism through which the Department
can be assured that individuals involved in this process are in the United States lawfully and that
national security interests are protected.

Due to potential security implications, specific data regarding sites and visits evaluated have been
omitted from this report. Under separate correspondence, we formally referred our sample data on
visitors or assignees with missing, incomplete, or ambiguous passport or visa information to both
Federal and contractor management for resolution. We were informed that management acted
promptly to resolve the status of each of the individuals and cancelled access for a number of those
identified in our sample.

MANAGEMENT REACTION

By memorandum dated December 17, 2002, the Deputy Secretary agreed with our findings,
conclusions, and recommendations. He took immediate corrective action by issuing interim guidance
to strengthen the Unclassified Foreign Visits and Assignments Program at Department sites. At the
same time, he directed the Office of Security to put its draft policy on a fast track for finalization by
early 2003.

We appreciate the Deputy Secretary's leadership on these matters. The problems we identified should
be successfully resolved if his directives are carried out by the Department's policy and program
offices. The Deputy Secretary's comments are included in their entirety as Appendix 3.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Under Secretary for Energy, Science, and Environment
    Director, Office of Science
    Director, Office of Security
    Director, Office of Counterintelligence
    Director, Policy and Internal Controls Management
UNCLASSIFIED FOREIGN VISITS AND ASSIGNMENTS PROGRAM

TABLE OF
CONTENTS



               Laboratory Management of Visits and Assignments

               Details of Finding ....................................................................... 1

               Recommendations ..................................................................... 6

               Comments .................................................................................. 7


               Appendices

               1. Objective, Scope, and Methodology ..................................... 8

               2. Prior Reports ....................................................................... 10

               3. Management's Comments .................................................. 11
LABORATORY MANAGEMENT OF VISITS AND ASSIGNMENTS

Control of Visits and   At the laboratories we reviewed, the Department did not adequately
Assignments             control unclassified visits and assignments by foreign nationals. We
                        noted that two separate laboratories, managed by the Office of Science
                        (Science) and the National Nuclear Security Administration (NNSA),
                        respectively, permitted certain foreign nationals to access their facilities
                        without ensuring that the visitors or assignees had been properly
                        admitted or were authorized to remain in the United States. The
                        Science-managed laboratory also granted visitors and assignees site
                        access before official approval and, in many cases, before completion
                        of national security agencies' background checks or consultations with
                        counterintelligence. Additionally, neither laboratory reported sufficient
                        information to enable the Department to properly track all visitors and
                        assignees at those sites.

                                              Passport and Visa Information

                        Departmental policy requires that passport and visa information be
                        "collected and maintained" on each foreign national visitor and
                        assignee. Although not explicit in the current Department Notice,
                        prudent management practices dictate that this information be kept
                        current for the duration of a foreign visit or assignment. Such
                        information is required to establish the identity and citizenship of the
                        individual and provide proof that the individual is authorized to enter
                        the United States. The visa is also important in that it establishes the
                        foreign national's status, such as student, diplomat, or government
                        official.

                        Despite the need to follow best practices in this regard, neither national
                        laboratory reviewed had ensured that all foreign nationals had current
                        passports and visas. At the time of our field visit, the Science
                        laboratory had not required or maintained accurate passport and visa
                        information for 91 of the 187 (49 percent) randomly selected visitors or
                        assignees we reviewed. Forty-one of the 91 had active badges and
                        could have accessed most of the site's facilities. Thirty-four of the 91
                        were from sensitive countries such as the People's Republic of China,
                        India, and Russia. Similar problems were noted at the NNSA-managed
                        laboratory. Passport and visa data were missing or incomplete for 37 of
                        the 188 (20 percent) individuals selected in our random sample. At the
                        time of our visit, 12 of those with incomplete or missing information
                        had an active badge. Of the 37 individuals, 17 were from sensitive
                        countries. Without appropriate information, the laboratories could not
                        ensure that these individuals were properly admitted and authorized to
                        remain in the country.


Page 1                                                                         Details of Finding
         Subsequent to the completion of fieldwork, we referred our sample data
         on visitors or assignees with missing, incomplete, or ambiguous
         passport or visa information to both Federal and contractor site
         management for resolution. Management at both sites later informed us
         that they determined the current status of the individuals in question and
         updated their visa and passport data as appropriate.

         As we conducted our sample analyses, Department officials pointed out
         to us that many foreign nationals are in the United States under the
         sponsorship of universities or other agencies and that these other
         entities, not the Department, are responsible for collecting and
         maintaining required data. In our judgment, however, this does not
         lessen the Department's responsibility to assure that such information is
         current before allowing access to its sites.

                                   Admission Practices

         For visits and assignments involving foreign nationals, host offices
         within the laboratories are to ensure that the individuals involved, and
         the purpose of the work, have been approved by responsible laboratory
         management. For foreign nationals from sensitive countries,
         background checks are to be completed by national security agencies
         prior to the visit or assignment. When circumstances do not allow for
         timely submission or completion of the background check, approving
         officials must consult with the appropriate counterintelligence official
         prior to making an approval decision. Visits and assignments involving
         foreign nationals from countries on the list of state sponsors of
         terrorism are to be specifically approved by the Secretary.

         Despite these requirements, the Science laboratory permitted foreign
         nationals to access its facilities prior to approval of their visit or
         assignment. We found that 74 of 187 (40 percent) of our sample of
         visitors and assignees from the Science-managed laboratory had been
         issued badges and allowed site access before their visit or assignment
         was approved. Additionally, many assignees from sensitive countries
         were allowed site access before their background checks or
         counterintelligence consultations were completed. One of these
         individuals was from Iran, a country identified by the U.S. Department
         of State as a terrorist supporting country, and was allowed site access
         over two months before the background check was completed.
         Although specifically required, this individual did not receive




Page 2                                                         Details of Finding
                      Secretarial approval prior to accessing the site. After approximately
                      five days, Counterintelligence officials at the Science facility
                      recognized that background checks had not been completed and that
                      required approvals had not been obtained, and ordered the individual to
                      leave the site.

                      In contrast, officials at the NNSA site did not admit foreign nationals,
                      except in very limited situations, until approval was received, national
                      security agencies' background checks were completed, and checks of
                      both classified and unclassified data sources maintained by other
                      agencies were performed. In fact, officials at the NNSA-managed
                      laboratory told us they did not believe that the standard background
                      checks were sufficient and supplemented them with checks of other
                      data.

                                              Tracking and Reporting

                      Sponsoring organizations are also required to obtain and report to
                      Department Headquarters biographical and personal identification
                      information on each visitor, including passport and visa information.
                      This information is then to be entered in the Department's Foreign
                      Access Central Tracking System (FACTS), a system designed to
                      provide complete and current tracking of all foreign national visitors
                      and assignees throughout the Department's complex. The Department
                      has developed an automated update feature that permits sites to upload
                      data from site level tracking systems, thereby eliminating the burden of
                      duplicate entry.

                      We found that neither of the national laboratories we reviewed reported
                      sufficient information to enable the Department to properly track all
                      visitors and assignees at their sites. While the Science site initially
                      entered all foreign national visitors and assignees into the Department's
                      centralized tracking system, it did not update the information for certain
                      changes or to close out the visit or assignment when completed. The
                      NNSA facility only entered information on foreign nationals who
                      required background checks, leaving all other foreign national visitors
                      and assignees to be tracked through a local system.


Guidance,             Weaknesses in the Department's foreign visits and assignments program
Implementation, and   occurred because of a lack of specificity in policy guidance, problems
Tracking              with implementation, and a lack of clear and quantifiable performance




Page 3                                                                      Details of Finding
                    measures. For example, while sites were required to collect visa and
                    passport information, Departmental guidance did not require them to
                    ensure that visitors and assignees maintained current status or
                    authorization to remain in the country. One official at the NNSA-
                    managed site pointed out that it had discontinued the collection of such
                    information because it was not used by anyone. After the events of
                    September 11, 2001, that same official indicated that the site realized
                    the importance of collecting and maintaining such information. Despite
                    that realization, however, our tests showed that 23 post-9/11 visitors or
                    assignees were permitted to enter the site without assurances that they
                    were authorized to remain in the United States. Until recently, sites and
                    those administering the program were not required to receive, and had
                    not received, training or instruction on the different types of visas that
                    foreign nationals could use to enter or maintain authority to remain in
                    the country. Although the Science laboratory recognized that official
                    approval was required prior to admitting visitors or assignees, it
                    permitted access without approval because it did not want to delay the
                    individual's work.

                    At an agency level, the Department was unable to properly track all
                    visitors and assignees because neither of the laboratories devoted
                    adequate attention to populating and maintaining FACTS. In this
                    regard, laboratory officials indicated that they used local tracking
                    systems to manage foreign visitors and assignees. While we recognize
                    the need for local tracking systems, such systems do not alleviate the
                    need for a centralized system that can respond to national level data
                    requests.

                    Although specifically required by the Government Performance and
                    Results Act of 1993, the Department also had not developed clear and
                    quantifiable performance measures to gauge progress in monitoring and
                    controlling its foreign visits and assignments program. While we
                    determined that a single measure covering the development of policy
                    guidance had been included in the Department's Annual Performance
                    Plan, we observed that the measure lacked specificity and that it was
                    difficult to determine what, if any, actions were required to satisfy it. In
                    addition, program officials at Headquarters were unaware that even the
                    single measure existed and had, therefore, not developed a method for
                    collecting metric data to analyze progress.


Security Concerns   Observed weaknesses exposed the Department to an increased risk that
                    its foreign visits and assignments program could be used by potential
                    adversaries to the country's detriment. Minimizing such risks is

Page 4                                                                     Details of Finding
         important because the national laboratories hold some of our most
         valuable national security assets. Furthermore, the Department spends
         billions each year to maintain a safe, secure, and reliable nuclear
         stockpile, and to provide technologies and personnel for its defense-
         related programs. Research essential to our national defense relies
         increasingly on unclassified science and technology, which has become
         much more international, collaborative, and networked. Thousands of
         foreign nationals from institutions around the world interact with
         laboratory employees at Department facilities. These interactions are
         taking place in an environment in which threats to our security have
         become more complex and sophisticated. Accordingly, appropriate
         protection of national security interests requires increased vigilance and
         increased threat awareness on the part of the Department and its
         laboratories.

         In discussions about our audit findings, Department officials stated that
         the Foreign Visits and Assignments program is not the sole mechanism
         in what they referred to as a "layered approach" to protecting
         information. Our observations led us to conclude, however, that
         compensating controls notwithstanding, identified weaknesses
         increased the potential for the program to be misused or manipulated,
         reducing its effectiveness as a security "layer."

         To its credit, the Department has taken a number of actions to improve
         accountability of its foreign visits and assignments program. During
         the course of our audit, the Office of Security issued a draft directive on
         policy and procedures for managing unclassified foreign national access
         to Department facilities for comment. This directive, if ultimately
         adopted and implemented, should address a number of our
         recommendations. We also observed that both laboratories were taking
         steps to improve management of foreign visits and assignments. For
         example, the Science-managed laboratory issued a corrective action
         plan to address weaknesses related to admissions. Additionally,
         contractor officials at the NNSA-managed laboratory indicated that,
         subsequent to our audit, they had taken steps to collect visa and
         passport information and ensure the proper status of all newly arriving
         foreign national visitors and assignees. However, to effectively address
         the issues raised in this report, from our perspective, a vigorous and
         Department-wide program needs to be adopted to ensure that proper
         controls are in place to administer unclassified foreign visits and
         assignments.




Page 5                                                          Details of Finding
RECOMMENDATIONS   1. To improve accountability over its Foreign Visits and
                     Assignment Program, we recommend that the Director, Office
                     of Security modify current Departmental policy to clearly:

                     a. Identify roles and responsibilities – for Department officials
                        and contractor management – for performance related to
                        foreign visits and assignments.

                     b. Require that:

                         •   All foreign nationals have current visas and passports for
                             the duration of their visit or assignment, that they
                             maintain the proper status, and that such actions are
                             adequately documented and reported.
                         •   Requests for foreign visits and assignments are
                             documented, completed, and approved before site access
                             is allowed.
                         •   Background checks by national security agencies, or
                             counterintelligence consultations as appropriate, are
                             completed before visits and assignments involving
                             sensitive countries or subjects are approved.
                  2. We also recommend that the Administrator, National Nuclear
                     Security Administration, and the Under Secretary for Energy,
                     Science and the Environment:

                     a. Ensure that sites:

                         •   Obtain up-to-date information for all foreign nationals
                             currently authorized to access Department sites.
                         •   Update the Department-level visitor tracking system to
                             reflect the current status of all foreign national visitors
                             and assignees.
                     b. Hold sites accountable for developing and implementing
                        local procedures consistent with Department policy.
                        Specifically, sites should:

                         •   Maintain current visa and passport information on all
                             future foreign national visitors and assignees, and ensure
                             that they maintain proper status.




Page 6                                                              Recommendations
                                 •   Ensure that requests for foreign visits and assignments
                                     are completed and approved before site access is
                                     allowed.
                                 •   Ensure that background checks by national security
                                     agencies, or counterintelligence consultations as
                                     appropriate, are completed before visits and assignments
                                     involving sensitive countries or subjects are approved.

                             c. Develop quantifiable performance measures for the foreign
                                visitors and assignment program at both the National and
                                site level.


MANAGEMENT REACTION   In correspondence dated December 17, 2002, the Deputy Secretary
                      indicated that the Department generally agreed with our findings,
                      conclusions, and recommendations and initiated immediate corrective
                      action. The Deputy Secretary's response is included in its entirety as
                      Appendix 3.


AUDITOR COMMENTS      The Office of Inspector General believes that the actions initiated by the
                      Deputy Secretary, if promptly implemented by Department policy and
                      program offices, will successfully resolve the issues cited in our report.




Page 7                                                  Recommendations and Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy adequately controls
              visits and assignments by foreign nationals.


SCOPE         The audit was performed at two national laboratories, one managed by
              the Office of Science and one managed by the National Nuclear
              Security Administration from May through August 2002. The universe
              of our audit samples consisted of all foreign national visitors, assignees,
              and employees at those sites from January 2001 through May 2002.


METHODOLOGY   To accomplish the audit objective we:

                   • Evaluated the Department's implementation of the Government
                     Performance and Results Act of 1993 related to the
                     establishment of performance measures for the foreign visitors
                     and assignments program.

                   • Reviewed lists of foreign national visitors, assignees, and
                     employees provided by the Department's Foreign Access
                     Central Tracking System, site badge systems, site Foreign
                     Visits & Assignment systems, and site human resource
                     systems.

                   • Randomly selected samples of 187 foreign national visitors,
                     assignees, and employees from a Science-managed laboratory
                     and 188 from an NNSA-managed laboratory. We augmented
                     our sample with an additional 22 foreign national employees
                     from the Science site to validate our initial sample results.

                   • Reviewed supporting documentation for our sample of foreign
                     national visitors, assignees, and employees.

                   • Interviewed officials from the Headquarters Office of Security
                     Operations, Office of Foreign Visits and Assignments,
                     Counterintelligence, and selected site Office of Security, Office
                     of Foreign Visits and Assignments, and Counterintelligence to
                     gain an understanding of roles, responsibilities, and procedures.




Page 8                                          Objective, Scope, and Methodology
              • Interviewed officials from selected host departments to obtain
                supporting information on each visitor and assignee in our
                samples.

              • Interviewed officials from selected site Human Resource
                departments to gain an understanding of roles, responsibilities,
                and procedures for foreign national employees.

              • Provided site officials the opportunity to verify the problems
                we discovered through our sampling process.

         Because the sites and Department headquarters use separate systems to
         track foreign visits and assignments, we selected separate samples from
         all systems involved to ensure our analysis was complete. Accordingly,
         we obtained data files of foreign nationals from the site tracking
         system, the site badge system, and from the Headquarters Foreign
         Access Central Tracking System for both laboratories reviewed. We
         then used U.S. Army Audit Agency Statistical Sampling Software to
         determine our separate sample sizes and generate random samples for
         sample selection. When practical, we also used Audit Command
         Language to compare data from the different systems at each site in
         order to find discrepancies between systems. We analyzed the total
         universe and eliminated duplications to the extent possible. Because of
         errors in naming conventions and spelling, we were unable to determine
         with absolute certainty that all duplicates were eliminated.

         The audit was conducted in accordance with generally accepted
         Government auditing standards for performance audits and included
         tests of internal controls and compliance with laws and regulations to
         the extent necessary to satisfy the audit objective. Because our review
         was limited, it would not necessarily have disclosed all internal control
         deficiencies that may have existed at the time of our audit. We relied
         on computer-processed data to accomplish our audit objective. We
         performed limited test work of data reliability during our audit and
         determined that we could rely on the computer-processed data.

         An exit conference was held with cognizant officials.




Page 9                                    Objective, Scope, and Methodology
Appendix 2

                                           PRIOR REPORTS


 OFFICE OF INSPECTOR GENERAL REPORT


 •   "Inspection of the Department of Energy's Export License Process For Foreign National Visits
     and Assignments" (DOE/IG–0465, March 2000). This report found a lack of information in the
     Department's formal data gathering process. As a result, DOE officials were not aware of the
     precise number of foreign nationals visiting the Department's laboratories. The report also
     stated that DOE N 142.1 requires clarification. Management for foreign visits and assignments
     at one of the Energy laboratories felt that the lack of roles and responsibilities in DOE N 142.1
     had led to confusion, as different offices were defining their own roles and responsibilities.


 GENERAL ACCOUNTING OFFICE (GAO) REVIEWS


 •   "Information on Foreign Visitors to the Weapons Laboratories" (GAO/T-RCED-96-260,
     September 1996). GAO issued testimony before the Subcommittee on Military Procurement,
     Committee on National Security, House of Representatives, which detailed a number of problems
     with the Department's control of foreign visitors. Testimony indicated that the number of visitors
     from sensitive countries was increasing at a faster rate than the number from other countries. GAO
     also indicated that the Department had subsequently delegated to the laboratories greater authority
     to approve foreign visitors to nonsensitive areas, and had taken action to require background checks
     for all visitors from communist countries regardless of the purpose of the visit.

 •   Department of Energy, "DOE Needs to Improve Controls Over Foreign Visitors to Weapons
     Laboratories" (GAO/RCED-97-229, September 1997). GAO reported that thorough assessment
     and surveys of the Department's controls over foreign visitors' access to sensitive information had
     not been conducted. Essentially, the laboratories had demonstrated the vulnerability of sensitive
     information being compromised.

 •   Department of Energy, "Key Factor Underlying Security Problems at DOE Facilities" (GAO/
     RCED-99-159, April 1999). GAO identified two key factors contributing to security problems.
     First, there was a lack of attention and/or priority to security matters by Department managers and
     contractors and second, there was a serious lack of accountability among the Department and its
     contractors for their actions. GAO believes the Department continued to illustrate the
     consequences of organizational confusion.




Page 10                                                                                      Prior Reports
Appendix 3




Page 11      Management Comments
Appendix 3 (Continued)




Page 12                  Management Comments
Appendix 3 (Continued)




Page 13                  Management Comments
Appendix 3 (Continued)




Page 14                  Management Comments
Appendix 3 (Continued)




Page 15                  Management Comments
Appendix 3 (Continued)




Page 16                  Management Comments
Appendix 3 (Continued)




Page 17                  Management Comments
                                                                              IG Report No.: DOE/IG-0579

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
